<html>
<title> - EASTERN EUROPE: THE STATE OF DEMOCRACY AND FREEDOM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                            EASTERN EUROPE:
                   THE STATE OF DEMOCRACY AND FREEDOM

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                           Serial No. 112-80

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-599PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas O. Melia, Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...     8
Nadia Diuk, Ph.D., vice president, programs, National Endowment 
  for Democracy..................................................    33
Mr. Stephen Nix, regional director, Eurasia, International 
  Republican Institute...........................................    43
The Honorable David Kramer, president, Freedom House.............    65

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     3
Mr. Thomas O. Melia: Prepared statement..........................    12
Nadia Diuk, Ph.D.: Prepared statement............................    37
Mr. Stephen Nix: Prepared statement..............................    45
The Honorable David Kramer: Prepared statement...................    68

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87

 
           EASTERN EUROPE: THE STATE OF DEMOCRACY AND FREEDOM

                              ----------                              


                         TUESDAY, JULY 26, 2011

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Mr. Burton. The Subcommittee on Europe and Eurasia of the 
Foreign Affairs Committee will come to order.
    Good afternoon. Thank you all for being so patient. We had 
a whole bunch of votes on the floor and in addition to that, we 
had to take a picture. You know how important that is for 
Congressmen and Congresswomen. If you don't, now you do.
    Anyhow, I appreciate your being here. It's been 20 years 
since the fall of the Soviet Union. In that time, the countries 
of the former Soviet Union and her Iron Curtain satellites have 
strived to adopt democratic governments and free market 
economies. For some, the transition was swift and complete. For 
others, the transition is still ongoing and for a tragic few, 
freedom and prosperity remain elusive.
    I believe much of the credit for this progress is due to 
the courageous leadership of many democratic-minded people in 
the region, but these brave patriots could not have succeeded 
without the dedication of people like former President Ronald 
Reagan, and others in the United States and elsewhere, who 
invested in the future of these countries by helping to plant 
the seeds of democracy and nurturing them over time. Countries 
such as Lithuania, Estonia, and Latvia which have adopted 
strong democratic institutions, electoral systems 
representative of the people and economies which have the 
opportunity to flourish should be applauded for their efforts.
    However, as we have seen in countries such as Georgia, 
Serbia, Albania, and Moldova who have struggled in their 
transition, democracy, although still holding on, is not 
without it's challenges. While the people of Georgia, Serbia, 
Albania, and Moldova have steadfastly maintained their 
commitment to achieving the democratic standards that ``Western 
countries enjoy,'' there's a real risk that people could start 
to grow tired of the struggle to reform of malintented actors 
suddenly swept into power seemingly overnight. We must not 
allow such things to happen. The United States and the European 
Union must continue to encourage and support those who strive 
for better and stronger democracies and we just unequivocally 
let them know that the United States is unwavering in our 
commitment to their success.
    Similarly, we must be equally unwavering in pressuring the 
leaders of those countries who have not adopted democratic 
ideals such as Belarus and Russia to make the necessary reforms 
to allow democracy to take root and to end corruptive and 
repressive practices. The United States, without a doubt, must 
let the leaders of such nations know that the status quo will 
not be tolerated and that the only way to fully join the 
international community is to embrace true democracy that 
enables freedom and rights which are obtainable by all of their 
citizens.
    Recently, I along with six other Members of Congress took 
part in the Community of Democracies Forum in Vilnius, 
Lithuania. It was encouraging to see so many nations from 
around the globe take part in an open forum to speak out in 
support of democracy and against those who destabilize 
democracy for their own corrupt purposes. Also encouraging was 
to see established democracies such as the United States and 
Germany attending the conference to support the goal of 
promoting democratic rule as well as strengthening democratic 
norms and institutions around the world.
    Forums such as the Community of Democracies enable 
cooperation to take place and we in the United States must 
support such efforts. To that end today, we're going to examine 
the current status of democracy and freedom in Eastern Europe, 
not only for former Soviet States, but also for all countries 
in the region. The good fight is for democracy and we must 
encourage its existence and nurture it so that it flourishes. 
Without our strong support and the support of European Union 
friends we would doom millions of people to repression that 
inhibits personal growth and stifles freedoms such as the right 
to assembly, the right to freely practice religion, the right 
to a free press and media, and the right to be in control of 
your own future. We must not let that happen.
    I am glad that the U.S. Department of State is providing 
testimony and I'm thrilled that Freedom House, the 
International Republican Institute, and the National Endowment 
for Democracy are here represented today. Thank you, and I look 
forward to learning how we can better support democracy and 
freedom in Eastern Europe. And I might add that we're going to 
be going over in Europe on a number of codels to meet with 
officials in those countries and talk to them about a myriad of 
problems and questions that exist, not the least of which is 
the financial stability of the entire region.
    With that, I will yield to my ranking member, Mr. Meeks.
    [The prepared statement of Mr. Burton follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Meeks. I want to thank you, Chairman Burton, for 
calling this hearing and providing an opportunity to review the 
state of freedom and democracy in Eastern Europe and Eurasia 
and to consider how best to engage with countries of the region 
to support the stiffening of democratic rights and liberties in 
the region.
    This large swath of the world includes some of Western 
civilizations oldest democracies and of course, some of its 
newest. Compared to some, the United States is a newcomer on 
the block. Others, however, are carved crudely out of failed 
empires or attained statehood with the fall of the Iron Curtain 
and the collapse of the Soviet rule have defined their borders 
in the past two decades. These are truly young democracies with 
legacies of authoritarian regimes that are difficult to 
relinquish.
    Democracies are works in progress, even in countries with a 
solid foundation and a long history of freedom and democratic 
institutions, like the United States. Even in Greece, the 
country that we credit as being the birthplace of democracy 
thousands of years ago, even Greece still tweaks the format. 
Just last year, Greece enacted a law allowing legal immigrants 
to vote in municipal elections.
    As we conduct this review, we must turn the prism of 
scrutiny on ourselves while we consider the imperfect rule of 
law in Russia, the discrimination against minorities throughout 
much of the region, and the identity laws that deny citizenship 
and voting rights to Roma, we remember our own flawed democracy 
that once defined a person or a man in such a way as to 
disenfranchise and even dehumanize women and minorities for 
centuries. And we observe that our democracy continues to 
struggle with and in some cases ignores the question of whether 
one's sexual preference is cause to deny an individual the 
rights of association, inheritance, insurance, marriage, and 
other rights and privileges that the majority population 
enjoys.
    Democracy is not a perfect system. It's greatest strength--
that it relies on the will of the majority--can be a great 
vulnerability. Leaders and representatives may fail to make 
difficult and necessary decisions like raising taxes for fear 
of alienating voters with the power to vote them out of office.
    As we will likely hear today, voters may choose governments 
we do not like. We shall hear that some European Governments 
have flip-flopped from left to right and back again. Rather 
than concluding that a given country is backsliding, we should 
conclude that voters are exercising their right to change 
course, peacefully and democratically. The system is working 
when that happens.
    I expect that we shall also hear today about challenges to 
countries in Eastern Europe and Eurasia. It is important to 
approach this information constructively and remember that our 
work today is not to sanction countries for failing. We, too, 
have failed. Rather, our purpose should be to lead by example 
and to offer our assistance where we can make a difference. 
Engagement also dictates that we expand our economic and trade 
relationship with Russia, while encouraging them to address the 
challenges of democracy. And it is gratifying that the full 
committee authorized this policy during our recent markup for 
the Foreign Affairs Reauthorization Bill.
    With respect to this, I urge my colleagues to scrutinize 
the votes of last week's State Authorization Markup. I fear 
that the bill that emerged from that session may have 
jeopardized some important democracy assistance in the 
vulnerable spots of the region.
    I am delighted to learn that our European friends are 
considering the United States National Endowment for Democracy 
as a model for undertaking of foreign policy--the Polish 
Foreign Minister Radoslaw Sikorski and EU High Representative 
for External Relations Catherine Ashton who are pushing for the 
creation of the European Endowment for Democracy, a flexible, 
funding mechanism for supporting democratic transition 
processes in neighboring countries.
    I hope our witnesses will also touch on this and other 
interesting regional cooperations planned that are underway. 
And I know that Mr. Chairman and Mr. Marino and Mr. Deutch 
recently participated in a Community of Democracies 
Parliamentarian Forum and that the NGOs that will be testifying 
today were also present there. And I look forward to hearing 
about this and their testimony and the organization's 
potential.
    Since the end of the Cold War, Europe and the United States 
have worked together successfully to advance freedom and 
democracy in the newly independent states. For most of these 
new partners, the goal has been economic and political 
stability and membership in one or more premiere trans-Atlantic 
organizations. That is NATO, the European Union and OSCE. This 
work is not over as the Balkan nations strive to pass through 
reform to prepare themselves for membership. But Belarus, 
Ukraine, Georgia, Armenia, if expansion of these organizations 
is finite, what goal or incentive will inspire these countries 
to take on the challenges of reform? I hope our witnesses will 
speak to this issue as well.
    Finally, the protracted, frozen conflicts in Moldova and 
the southern Caucasus are reminders that we can not expect 
forward motion on freedom and democracy if we, the United 
States and the EU, disengage or embrace isolationism. In 
Belarus, or on the EU's borders, Europe's last dictator has 
orchestrated an electoral fraud and violent crackdowns on 
peaceful dissent. Close coordination between the United States 
and European Union is important in addressing this situation, 
but most importantly Belarus' democratic neighbors have a vital 
role to play by backing civil society and independent media 
with material assistance and political support.
    Central and Eastern Europe have shown a strong willingness 
to assume leadership in the EU and NATO and I think this is a 
real opportunity to assume a leadership role. If the Arab 
Spring has taught us anything it is that democracy is still 
relevant and that the people who are oppressed seek freedom and 
seek the power to change their governments, the promises of 
democracy.
    I commend the work of IRI, Freedom House, the National 
Endowment for Democracy, and others who have implemented the 
U.S. vision of strengthening democracy worldwide. And I'm eager 
to hear the testimony from our witnesses and I again thank the 
chairman for calling this hearing and having an agenda where we 
will be traveling and seeing for ourselves what's happening on 
the ground because I think that's how we learn more by going 
there and visiting and interacting with people and I look 
forward to traveling with you in the future.
    Mr. Burton. Toward that end, I hope your wife is feeling 
much better. She had a little back trouble. And I want to say 
that I'm very happy that I was able to co-sponsor the Russia 
amendment with you, even though we still have some problems 
over there.
    The gentlelady from Ohio, would you have an opening 
statement?
    Ms. Schmidt. Mr. Chairman, I'll be brief. I just want to 
say that this is a very important topic and while I might be 
new to this panel, I am not new to the International Republican 
Institute or the National Endowment for Democracy, because some 
15, 16 years ago I was sent by the IRI to Russia to work with 
both the IRI and the NED to help in their election processes 
and to train candidates. And back then we were working toward 
democracy in Russia and we're still working through it today 
and I look forward to the testimony and I yield back the 
balance of my time.
    Mr. Burton. I thank the gentlelady. And we'll now recognize 
Mr. Sires from New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
important hearing today to examine democracy and the human 
rights development in Eastern Europe. While human rights 
conditions are not perfect across Europe, I think we can agree 
that the situation in Central and Eastern Europe, as well as in 
the South Caucasus, has greatly improved since the days of the 
Cold War and the wars in the Balkans.
    Much of the success can be credited to the integration of 
Europe and the desire of many of these countries to join NATO 
and the European Union. I think it can be concluded that the EU 
has had a great impact on the progress of human rights in the 
region. The human rights situation is generally better among EU 
member states than EU member candidates.
    I have personally seen firsthand the progress made on 
democracy and freedom in the region when I travel to both 
Poland the Czechoslovakia. While great improvements have been 
made, there are still shortcomings in human rights and 
democracy in such countries as Belarus, Ukraine, and even the 
EU member Hungary. It is my hope that today's hearing will help 
us assess how we can balance the need to continue to help new 
democracies in the region emerge without letting other 
democracies regress.
    I look forward to hearing from the witnesses today. And I 
thank you, Chairman, for holding this meeting.
    Mr. Burton. Mr. Poe of Texas, do you have an opening 
statement?
    Mr. Poe. Yes, I do, Mr. Chairman.
    Mr. Burton. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Today's hearing focuses 
on democracy, freedom, and respect for human rights in Eastern 
Europe. One item of human rights that I am particularly 
concerned about, not only Eastern Europe but worldwide is the 
dastardly deed of human trafficking that occurs in Eastern 
Europe and other places in the world. Thankfully, the 
Trafficking of Persons Report established by the Trafficking 
Victims Protection Act and produced by the Department of State 
sheds light on the disturbing issue occurring in the world and 
in our own country where human beings, mainly females, are 
bought and sold for sex and for labor. It is a form of modern-
day slavery.
    Many countries, in my opinion, aren't doing enough to 
address this issue. We need to do all that we can to pressure 
all countries that do not meet the minimum standards in 
combating traffic and to change course and focus on this issue.
    Significant numbers of Eastern European countries have poor 
human trafficking records. The 2011 Trafficking of Persons 
Report places Russia, the Ukraine, Azerbaijan, and Estonia all 
on the Tier 2 watch list with many other Eastern European 
countries on Tier 2. Tier 2 watch list countries have a 
significant number of trafficking victims and have not provided 
evidence that they are increasing their efforts from the 
previous year to combat this horrible crime.
    While Tier 2 countries are making efforts to come into 
compliance, they still don't meet the minimum standards 
established in the Trafficking Victims Protection Act. Both 
Tier 2 and Tier 2 Watch List countries are considered to be 
making significant efforts to bring themselves into compliance 
and with the standards of the Trafficking and Victims 
Protection Act, it is necessary for the United States to 
continue to put pressure on these countries to make real 
changes.
    The United States claims to be and is the leader in human 
rights throughout the world and it is important that we take 
the lead worldwide in making sure that human trafficking, 
modern day slavery, comes to an end.
    Mr. Chairman, I'll submit the rest of my comments for the 
record.
    Mr. Burton. Thank you, Mr. Poe. Mr. Melia, we really 
appreciate you being here today. Let me introduce our guests. 
Mr. Melia is Deputy Assistant Secretary of State in the Bureau 
of Democracy, Human Rights and Labor. He's responsible for 
DRL's work in Europe and in Russia and the countries of Central 
and South Asia as well as workers' rights and issues worldwide.
    He came to DRL in 2010 from Freedom House where he was 
deputy executive director for 5 years. And for more than 12 
years, Mr. Melia held senior posts at the Democratic National 
Institute. I really appreciate you being here today. We 
normally swear witnesses in, so if you wouldn't mind, I'm sure 
you're very truthful. Will you rise so we can swear you in?
    Do you swear to tell the whole truth and nothing but the 
truth, so help you God?
    Mr. Melia. I do.
    Mr. Burton. You can proceed with an opening statement if 
you have one. Can you turn on the microphone?

 STATEMENT OF MR. THOMAS O. MELIA, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Melia. Thank you, Mr. Chairman, Congressman Meeks and 
the other members of the subcommittee. I appreciate the 
opportunity to speak to you today about the state of human 
rights and democracy in Eastern Europe. I ask that my full 
written testimony be submitted for the record.
    Mr. Burton. Without objection.
    Mr. Melia. I apologize for its length. To paraphrase a 
great American, if I had taken more time, I would have made it 
a bit shorter, but in the interagency clearance process, more 
things get added to these kinds of documents than get taken 
out. Assistant Secretary Michael Posner asked me to send his 
regards specifically to the members of this subcommittee to 
emphasize his desire and that of all my colleagues in the 
Bureau of Democracy, Human Rights and Labor to work closely 
with this subcommittee to address the challenges and 
opportunities in this important region.
    I want to commend you also, Mr. Chairman, for the selection 
of the non-governmental panel that is to follow and that I 
intend to stay and listen to. Nadia Diuk, Steve Nix, and David 
Kramer are among the very best analysts of the democracy 
challenges in this region and they are also activists of the 
first order, leaders of important NGO efforts to assist local 
efforts in these countries to promote the cause of freedom. So 
I'm proud to be at the hearing today with them.
    This is a timely moment to discuss democracy in Eastern 
Europe. Lithuania, one of the brighter stars of democratic 
consolidation to have emerged from the collapse of the Soviet 
Union just concluded a very successful term as chair of the 
Community of Democracies--as you saw when you were in Vilnius 3 
weeks ago. Moldova, too, has moved forward in recent months 
with orderly elections and is deepening its democratic habits 
on several fronts. Turkey and Hungary are in the midst of major 
constitutional reforms that have raised some concerns and 
anxieties because of the very large majorities that those 
governments have in their Parliaments. In the past few weeks, 
more happily, Belarusians have recently found creative new ways 
to protect their government's harsh repression, demonstrating 
the resiliency of the human spirit in Belarus.
    I want to start with two broad points. First, even among 
our allies in Europe, we have a continuing interest in the fair 
treatment of minorities. Roma, Europe's largest minority, 
continue to experience violence, segregation and other 
discrimination. Anti-Semitic and anti-Muslim incidents are too 
common and not going away. And individuals with disabilities 
struggle to participate fully in governance due to limited 
accessibility. Moreover, members of the lesbian, gay, bisexual 
and transgender communities face discrimination and even 
violence in many parts of Europe. These issues are important in 
their own right and because the U.S. and democratic Europe can 
send important messages by our own examples of what tolerance 
and inclusion, what equal citizenship for all can look like.
    Second, I want to add a caveat about the enduring project 
of trans-Atlantic integration. The promise of EU and NATO 
membership has been highly effective in promoting reform and 
democracy. Ten former Communist countries from the former 
Yugoslavia and the Warsaw Pact have now joined the EU and 
today's news is that Croatia has been told it may join by the 
turn of the year. In every case to date, however, the Democracy 
Index scores from Freedom House in its Nations in Transit 
Report declined the year after each of these countries' 
admission to the EU, demonstrating that membership in the EU is 
not the end of history, does not mean that democratic 
development is over or concluded.
    We're concerned, for instance, these days about Hungary's 
current democratic trajectory since the Fidesz-led government 
there won two-thirds of the seats in Parliament last year. The 
government has taken several major steps to limit checks and 
balances and otherwise solidify the power of the government 
party. As Secretary Clinton said during her visit to Budapest 
last month, ``We call for real commitment to the independence 
of the judiciary, a free press, and governmental 
transparency.''
    We also have a great interest in developments in Turkey, 
concerned about media freedom. We've urged that an 
investigation into prosecutions of journalists proceed in a 
transparent manner, and with due process. And while the 
government there has taken some positive steps in expanding 
religious freedom, we continue to urge that the Halki Seminary 
be reopened and the other issues relating to the status of the 
Orthodox patriarch.
    Ukraine is an important partner and we have major concerns 
about the directions things have gone since the Presidential 
elections last year. I visited Ukraine the second week in July 
for the third time in 9 months and met with government 
officials, civil society, and opposition leaders. As you know, 
former government officials including Prime Minister Tymoshenko 
are facing prosecution on charges that seem puzzling at best 
and mischievous more likely. At the same time, there is 
positive momentum in some areas. We urge the government to 
reach for a genuine consensus on the rules of the game as it 
develops a new election law and we take note of the concerns 
raised by partners like NDI and IRI. The Yanukovych government 
needs to deepen its engagement on election reform with other 
parts of society.
    On Belarus, the Obama administration has continued the 
long-standing bipartisan policy centered on consistent advocacy 
for democracy and human rights. I myself went to Minsk in mid-
January, shortly after the crackdown on December 19th, to 
demonstrate the U.S. Government solidarity with the families of 
political prisons. I met also with human rights lawyers, 
journalists and civic leaders. In tandem with the EU, we 
imposed sanctions and asset freezes on individuals responsible 
for the crackdown and we have increased our support for 
democratic actors by 30 percent this year to aid those facing 
repression.
    Mr. Chairman, perhaps the most complex challenge to 
democratic reform in Europe lies in Russia. In a 6-day visit 
there in March I traveled beyond Moscow to Perm and 
Ekaterinburg where I acquired a better sense of the diversity 
of opinion of the Russian people and the challenges they face 
in advancing democracy. Two weeks ago, Secretary Clinton and 
Foreign Minister Lavrov met in Washington. In addition to 
working together to address shared interests like confronting 
Iran's nuclear threat and priorities such as Afghanistan and 
missile defense, they announced several important partnership 
initiatives. It's within this context a partnership of great 
breadth and strategic importance that we continue to support a 
democratic, modern Russia governed by the rule of law.
    Unfortunately, continued restrictions on fundamental 
freedoms hinder Russian development and its prospects for 
deeper partnership with us. We've expressed our concerns that 
parliamentary elections in December may fall short of 
international standards and though an assessment team from 
OSCE's ODIHR office is arriving soon, it's important that 
Russia follow up with a formal unrestricted invitation for 
ODIHR election observers.
    We continue in our engagement throughout the year to raise 
concerns about the assaults on freedom of the press and freedom 
of expression, particularly the numerous, unsolved cases of 
murdered activists like Natalya Estemirova, the rampant 
corruption and impunity exemplified by the case of Sergei 
Magnitsky and restrictions on freedom of assembly for members 
of groups like Strategy 31, the Khimki Forest Defenders, and 
various LBGT groups.
    U.S. programs in Russia, including those funded by DRL, my 
bureau, focused on developing an independent media bolstering 
local human rights defenders capacity and of course, we 
continue to speak out publicly and privately against human 
rights abuses on a consistent basis.
    We're grateful for the partnership with the Congress in 
this effort. Mr. Chairman, thank you again for the opportunity 
to appear here today and I look forward to your questions and 
our discussion.
    [The prepared statement of Mr. Melia follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you very much. I appreciate your opening 
statement. One of the--I have a few questions here that I think 
are extremely important and you addressed one of them in your 
opening statement regarding Hungary. They passed a religious 
repression law just recently. Have we had any contact with that 
government protesting that move, restricting religious freedom 
to just a few religions in particular?
    Mr. Melia. The law you're referring to requires the re-
registration of religions in Hungary and thereby disadvantages 
a number of them.
    Mr. Burton. Tell me a little bit about that. I mean they 
can't register as a legitimate religion, but can they assemble 
or what kind of restrictions have been put on them by the 
Hungarian Government?
    Mr. Melia. The law has just been passed so in terms of 
whether it will lead to any actual restrictions in the day-to-
day operations of faith communities remains to be seen. The 
Hungarian Government has told us that it won't. But I can tell 
you that Assistant Secretary Posner and I raised this issue 
last week in a meeting in our office with a visiting minister 
from the Hungarian Government. We said this looks very 
troubling and looks like it's moving in exactly the direction 
you suggest. We asked them to revisit that.
    Our Embassy in Budapest raises this, among other issues, 
with the Hungarian Government. They are in the midst of passing 
a lot of laws these days in Hungary. They are passing more 
fundamental laws in the wake of the constitutional reform that 
was just enacted a few weeks ago. They are going through a 
series of I think it's almost two dozen cardinal laws which are 
fundamental laws framing major parts of Hungarian society. And 
they're doing it without adequate consultation with political 
opposition and civil society and frankly, without heeding much 
of the advice they're getting from the international community.
    Hungary is a partner of ours. It's a NATO ally. It's a 
member of the EU. It just concluded its turn as President of 
the EU. We're engaged on a very vigorous basis with Hungary and 
trying to get their attention on some of these measures.
    Mr. Burton. I think since they are a member of the EU and 
they are an ally, a NATO ally, I think it's incumbent upon us 
since we stand for freedom, democracy, and human rights and 
religious freedom, that we send a formal letter, if not 
criticism, but a formal letter of protest because that flies in 
the face of what we stand for as well as our NATO allies and I 
believe the European Union. So I don't know if anybody from the 
Hungarian press is here, but we think this was a mistake and we 
hope that they'll rectify that.
    You mentioned Turkey. Can you restate real quickly the 
concern that you had about Turkey that was in your opening 
statement?
    Mr. Melia. Well, I can refer to the fuller statement where 
it's discussed at greater length.
    Mr. Burton. You don't need to go into great detail, but you 
mentioned something that eludes me at the moment.
    Mr. Melia. I mentioned the importance of the Halki 
Seminary, the Greek Orthodox Seminary that's been closed since 
the mid-1970s due to a law that was passed by a previous 
government that restricted the ability of any faith community 
to operate educational establishments.
    Mr. Burton. The Patriarch of the Orthodox Church is in 
Turkey.
    Mr. Melia. That is right.
    Mr. Burton. And we passed an amendment in the authorization 
bill which we passed last week that addresses that and urges 
Turkey to make some changes that would allow for the 
reconstruction and the expansion of religious freedom over 
there, especially since one of the leaders of one of the 
biggest churches in the world actually resides and is 
headquartered in Turkey.
    Mr. Melia. 300 million Greek Orthodox.
    Mr. Burton. 300 million.
    Mr. Melia. That's right.
    Mr. Burton. And my wife happens to be one of them so I have 
to be absolutely sure I bring that up.
    Mr. Melia. And we bring it up frequently with the 
Government of Turkey. And in the aftermath of their recent 
elections in which the Erdogan government was reconfirmed in 
office, we have taken it up again and there have been some 
measures taken to accommodate the ecumenical Patriarchy there. 
They're making it easier for others to gain Turkish citizenship 
so that they can become part of the operation of the Patriarchy 
in Istanbul. That's part of normalizing the succession 
prospects of others to take over as Patriarch. So they're doing 
some minor things that are accommodating the community there, 
but they haven't yet found a way to reopen the seminary which 
continues to have a high school that operates and it continues 
to operate as a library and a resource center. The facility, I 
understand, is maintained in good stead. They're just not 
allowed to train seminarians for the priesthood at a college-
equivalent level. And that's something that we've been pressing 
them about on a regular basis.
    Mr. Burton. Turkey is a NATO ally and a good friend, but I 
think just mentioning this to the government would be a 
profitable thing.
    Mr. Melia. We will continue to do so.
    Mr. Burton. Let me just make one more comment and ask a 
question. There are two cases and I think you mentioned one, 
Sergei Magnitsky.
    Mr. Melia. Yes.
    Mr. Burton. And Mikhail Khodorovsky. I had the same problem 
you did with some of these Russian names. Can you give me an 
update on that situation? I know you mentioned it briefly in 
your opening statement.
    Mr. Melia. Well, Sergei Magnitsky, you recall, was the 
lawyer for an American firm that uncovered some fraud, a $230 
million fraud against his company and reported it to Russian 
authorities and was promptly accused of having undertaken the 
fraud himself and was imprisoned and held for about a year 
without charge or trial. And during his imprisonment, he became 
ill and he died through neglect which most observers think was 
malicious and intentional.
    We have called on numerous occasions for the prosecution of 
those responsible, that there should be no impunity for those 
responsible for his tragic death. It is a major human rights 
violation of this innocent, 37-year-old lawyer when he died 
last year. So that continues to be one of our engagement 
points.
    In response, legislation that Senator Cardin introduced, 
and has also been introduced in the House by several of your 
colleagues, would call for visa bans on some people identified 
as being responsible for Magnitsky's death. I think there has 
been some action taken recently. You'll note that just in the 
last 2 weeks, two prison officials had charges opened against 
them and prosecutions are beginning about his death. So that is 
an item that we continue to press the Russians on and we'll 
continue to do so. It's become a kind of emblematic case in 
Russia. A lot of Russians are as outraged about it as we are.
    Mr. Burton. They should be. Khodorovsky, he evidently was 
responsible for U.S. investors losing $12 billion. Can you give 
us any update real quickly on that?
    Mr. Melia. I'm not familiar with the aspect that you just 
mentioned. Mikhail Khodorovsky was one of the wealthiest men, 
maybe the richest man in Russia 10 years ago when he became a 
supporter of opposition political movements and most observers 
believe that for his involvement and support of alternative 
political operations in Russia, he was tried and convicted of 
fraudulent activities. He was recently resentenced a few months 
ago and his term was extended. He was to have gotten out of 
jail later this year.
    Mr. Burton. One of the things I hope you'll check on, 
because evidently U.S. investors were bilked out of or lost $12 
billion, and since he's been incarcerated I wonder if we could 
find out what happened to those assets and if there's any way 
that there could be some repayment for the money that U.S. 
investors lost as a result of this.
    Mr. Melia. You may be referring to the fact that his 
company, Yukos Energy, which was an oil exploration company was 
taken over by----
    Mr. Burton. Expropriated by the government.
    Mr. Melia. By the state and that included a lot of American 
ownership as well. So that was part of what was done to 
Khodorovsky. That's right.
    Mr. Burton. Are we making any protest about that to try to 
get some of those funds back and if not, will we? Sorry to take 
so much time.
    Mr. Melia. That's all. You know, we've mostly addressed 
taking to the Russia Government our concerns about the 
prosecution of his case and his imprisonment and the extension. 
I would have to get back to you. I'll take that question and 
explore what we've done in terms of the assets themselves.
    Mr. Burton. Well, we'd really appreciate that. I mean 
obviously if he was incarcerated illegally, it's great to 
protest that, but I'm sure these American business people who 
were bilked out of $12 billion because of government 
expropriation would like to protest as well.
    Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman. I think I'll just pick 
right up since you ended with Russia, let me just ask some 
questions about Russia. One of the things that I've been 
looking to move forward with is Russia's accession to the WTO, 
because that will then force them into some rules and 
regulations and that might be good. But my question about 
Russia lies with the President's reset policy and from the way 
I understand it, it's expanding engagement in areas of mutual 
interests that will not only improve an important relationship, 
but open markets. But the question is, and also the hope is, 
sometimes my viewpoint is when you engage with countries in 
this regard, you also can have a significant impact on human 
rights, on workers' rights, in democratic principles. And I 
know there's a lot--I'm trying to figure out how do we improve 
the situation because Russia is key in the area.
    Can you talk a little bit about the President's reset 
policy as well as maybe make a comment on the U.S.-Russia 
Bilateral Presidential Commission and whether that's working 
successfully or not.
    Mr. Melia. Sure. Thank you for that, Mr. Meeks. When the 
President came to office 2\1/2\ years ago, we set upon a course 
that's been frequently referred to as the reset with Russia in 
order to repair a relationship that had broken down to the 
point where there was almost no communication between the two 
governments. And over the last 2\1/2\ years, we have found a 
way to engage with Russia on a range of things that are 
important to our national security and our prosperity and that 
includes working with the Russians on shrinking our nuclear 
arsenals, working with them to corral Iran and its nuclear 
ambitions. And they've provided access for supplies to our 
service members to get in and out of Afghanistan over Russian 
territory.
    They abstained on the key vote on the Libya action at the 
U.N. Security Council in order to let it go forward. So there 
are a number of ways in which we are doing normal business with 
Russia that we were not able to do before the start of this 
reset policy.
    Our hope has been that this engagement will give us more 
influence and more leverage with the Russians to move further 
in the direction of respect for human rights and opening up the 
political system to respect democratic norms. It's been less 
successful on that front.
    We continue to engage with them on a regular basis. As I 
said, we call them out on individual cases as they occur, on 
recurring strategic problems like the freedom of assembly, 
curtailment of freedom of expression. There is generally what I 
call an ``information deficit disorder'' in Russia in that the 
authorities make it difficult for alternative points of view to 
get reflected in the official media and even in private media. 
There are definitely efforts to curtail freedom of expression 
in a broad, systematic way. And we try to address that in a 
couple of ways. One is by pressuring the government to relent. 
The other is by supporting independent media through grants and 
through our work in the OSCE and other ways.
    We can't make other countries do what we want most of the 
time. What we can do is try to engage with them and pressure 
them and persuade them and cajole them and also support through 
material means and in our solidarity efforts, other voices to 
be heard. So we're doing that in Russia. We'd like it to be 
more successful and we'll continue to work at that.
    In terms of public statements, we speak out publicly about 
our concerns in Russia at least as often and probably more 
often than we do with any other country in the world. So the 
engagement that we have in terms of cooperation on things that 
are important to our national security interest does not keep 
us from speaking the truth in public to the Russian Government.
    Mr. Meeks. And on that same, you know, note, you talked 
about our activities in helping strengthen civil society, 
etcetera, can help promote democracy, move things around. Now 
given the fiscal crisis that we're having in the United States 
and other problems, it seems as though funding for assistance 
to Europe and Central Asia has plummeted and continues to 
plummet. The good news about that is that the EU is taking a 
greater role in this regard and I'm convinced that the United 
States' role is not obsolete. We're not just going to--just, 
compete with the EU.
    In fact, there has often been the case where U.S. funding 
assistance has initiated innovative programs that the EU has 
subsequently taken over which is a testament to American 
innovation which I think is a good thing. But I'm always 
concerned when traveling with the United States' reputation and 
with the dwindling amount of money that we're going to be 
having to fund various programs that are there, some of it 
because of what we have, but I want to make sure that we're not 
cutting off our nose to spite our face.
    What kind of goodwill do you think that we can continue to 
build in Eastern Europe and Eurasia if the funding levels keep 
going steadily down? And how will this impact, for example, the 
Northern Distribution Network or the future of the Manas Base 
in Kyrgystan, in particular, the impact of cutting funds to 
them?
    Mr. Melia. That's either one big question or a lot of small 
questions. They're all important. I think the main question you 
asked is about whether our influence and our prestige in the 
world will be diminished if we shrink our ability to be present 
in grants and activities around the world. I think you're 
right. To the extent that we are not able to be providing 
support to democratic activists in countries throughout Eastern 
Europe and beyond into Central Asia, that is the extent that 
our light will be fading in the eyes of people who are looking 
for our help.
    We are engaged on the security front across Central Asia 
and around the world, but even there, there are pressures on 
the budget, obviously, and that's part of the debate that's 
going on in this town this week.
    We are finding smarter ways to use the resources we have to 
make it available to support the work of democratic activists 
in various places. We're doing that through virtual programs, 
enabling international networks to get together online and to 
support each other in ways I think have come to fruition in 
Belarus in recent weeks, for instance. We'll continue to do 
that.
    If there's a dramatic cut in resources, then there will be 
a dramatic cut in the ability of America to be present on the 
front lines where people want us to be. I've traveled in the 11 
months that I've been in this job, I've been to 10 of the 
former Soviet Republics and I have found that people look to 
America, first and foremost for our example, the kind of 
democracy that they know we are and are becoming, as we 
struggle to improve our democracy all the time. And they want 
us to be speaking out that we know what's going on in other 
countries, that we have a preference for the democrats, small D 
democrats. And we're going to put our influence and our weight 
and our resources behind them.
    There are republicans, too, in some of these places, but 
I'm talking more generally about democrats. So I think you're 
right. The more that we're able to be present in the world, the 
more we're able to help people that ask for our assistance.
    Mr. Meeks. The last question I have, do you think we'll 
have--because my concern is about the Northern Distribution 
Network and the future of Manas, especially with the 
cooperation that we've been having with Kyrgyzstan. Do you 
think it's going to have any effect there?
    Mr. Melia. Kyrgystan is the best hope for a democratic 
breakthrough in Central Asia. They've had competitive elections 
a few months ago and five parties are in Parliament. President 
Roza Otunbayeva, the woman who came in as interim President, 
she's going to stand down when they hold a Presidential 
election later this year. That is the country that has the best 
chance to consolidate a democratic system. It happens to be the 
place where the Manas Air Base is and where we have access to 
Afghanistan.
    I think we need to demonstrate that we're interested in 
Kyrgystan not just because of their strategic location, but 
because we care about the people of Kyrgystan and the policy of 
this administration is to do so. And so we are emphasizing our 
support for trying to consolidate this democratic opportunity 
in Kyrgystan right now. That's the largest recipient of our 
democracy and governance assistance and the place where we can 
be the most helpful I think.
    Mr. Burton. Incidentally, we're planning to take the codel 
over there some time either late this year or early next year.
    Ms. Schmidt of Ohio.
    Ms. Schmidt. Thank you. First, a quick comment on Russia 
and then I want to focus on Romania. It was 16 years ago, I 
think it was 16 years ago, that I actually went over to 
Voronezh, Russia to help them establish a way to win elections 
in a democratic fashion. And it's ironic that this many years 
later, they're still struggling for democracy in Russia. But 
having said that, focusing on Romania, what target date has the 
administration given the Romanian Government for restoring the 
remaining 5,000 properties belonging to religious communities 
illegally confiscated under communism? And is the State 
Department aware that the Romania Restitution Committee has met 
only twice in 2 years and for the past 9 years has handled only 
one third of all religious property claims?
    Mr. Melia. You have gotten outside my briefing. I don't 
know the answer to that, Congresswoman. I will take that 
question and get back to you in the next few days, either in 
person or with a written response to you on that. I just don't 
know the answer to that.
    Ms. Schmidt. Thank you. You probably can't answer the other 
two with Romania. I will just say, in closing, on my Romania 
question that I do have some folks back home that have 
interests in Romania and one of the things that they struggle 
with is the level of corruption that is there and it makes it 
very difficult for American companies to do business when 
corruption still is commonplace in many parts of the former 
Soviet Union.
    Well, maybe you can answer the last question that I have. 
Is our Embassy in Bucharest prepared to send an observer to the 
trial of Attila Marko, which is set to begin on September 6th 
in Brasov? As you probably know, Mr. Marko is the only 
Hungarian member of the Romania Restitution Committee who has 
been scapegoated and falsely indicted for abuse of power 
because he approved the restitution of specific property in 
2001. If you don't know that, you can get back to me on that.
    Mr. Melia. I will include that in my response to you.
    Ms. Schmidt. Okay, and you mentioned that the Organization 
for Security Cooperation in Europe, whose mission has 
drastically changed since its founding, its operations during 
the Cold War and 20 years of post-Soviet Union democracy 
building. What role do you see the OSCE taking in the next 20 
years?
    Mr. Melia. Well, the OSCE is an important mechanism for a 
number of reasons. Twenty years ago in 1990, at the end of the 
Soviet Union, it transformed from an occasional meeting of 
foreign ministers into a permanent organization with a 
Secretariat and a number of missions. An important part of that 
mission has been the Office for Democratic Initiatives and 
Human Rights based in Warsaw and they have been able to put 
missions on the ground in various countries and provided 
advisory and technical assistance and political momentum to 
accelerate certain reform initiatives. They provide a lot of 
assistance in monitoring of election processes across the OSCE 
space.
    I was with the Secretary in Astana last December when the 
OSCE summit took place. And the Astana Declaration reaffirmed 
all of the 56 member states' commitments to the human rights 
catechism that has been built up over the years in OSCE, 
including the proposition that human rights in any individual 
country is the responsibility of all the members, that it is 
not an intrusion on the internal affairs of another state to 
take an interest in human rights situations elsewhere. And so, 
all of the countries agreed to that.
    That's particularly important in the case of Central Asia 
because the five countries of Central Asia don't belong to any 
other framework organization that provides a discussion on 
human rights and democratic fundamentals in the way that other 
parts of the former Soviet Union or parts of the Council of 
Europe or nowadays, the European Union. So the OSCE is 
especially important in Central Asia. It's also important as a 
reference point in places like Ukraine and Russia and in the 
Caucasus. So it will continue to be a way that we can gather 
together governments who otherwise may go their separate ways.
    The monitoring missions and the peacekeeping efforts in the 
so-called frozen conflicts in Moldova, between Armenia and 
Azerbaijan, along Georgia's northern border, OSCE provides an 
important way to get these governments together from time to 
time to try to address these security issues, as well as the 
human rights issues that are attached to them. So we think that 
it will remain an important mechanism going forward.
    Ms. Schmidt. Thank you. I yield back my time.
    Mr. Burton. Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman. I apologize. I had to 
go to my office.
    Mr. Burton. That's okay.
    Mr. Sires. Thank you very much for your testimony. I'm 
sorry I missed most of it. You know, a couple of years ago we 
traveled to Czechoslovakia, Poland, and Hungary and also we 
went to Russia. One of the things that one of our colleagues 
asked the Russians when we were there is that the BBC did 
polling in Russia and they said about two thirds of the 
Russians do not like us or distrust us. Is that still the case? 
I mean this was about 3 years ago.
    The other question I have is I just want to know how much--
one of the other things that came out during the conversation 
is the influence of Russia on Hungary which used to be a lot 
more than in Poland and Czechoslovakia. I was just wondering if 
you can comment on that.
    Mr. Melia. I mentioned earlier the information deficit 
disorder that we see in Russia where discussion of a lot of 
public issues and political options and political opportunities 
is curtailed due to restrictions on the broadcast media in 
particular. The information space is flooded by anti-American--
I guess propaganda is not too harsh a word to use. There's a 
campaign to feed suspicion and paranoia about the West, about 
the United States, and about democracy. That's the information 
environment that we're competing in through Voice of America 
and through our information programs, exchange programs, things 
like that.
    It's a contested space and right now the dominant view is 
that the United States and other Western governments do not 
want Russia to succeed as an independent state. Now that is 
exactly wrong. Right? We know that the United States wants 
Russia to stand on its feet and be a self-sufficient, law-
abiding democratic state that can be part of the international 
community. We want Russia to succeed. But there is this 
campaign abroad in the land that says exactly the opposite, 
that somehow we're trying to weaken Russia and make it 
something other than a success. So public opinion is inclined 
in the way you say. That's right.
    Mr. Sires. In terms of Hungary?
    Mr. Melia. Hungary on the other hand has to this point had 
a very open, vibrant media environment. It has a history of 
being part of the Warsaw Pact, being dominated by the Soviet 
Union. There's a lot of hostility toward Russia and the Soviet 
legacy. That was underscored, I think in recent days. They 
dedicated a statute to Ronald Reagan in Budapest last month to 
commemorate the fall of communism.
    Mr. Sires. We have to go there, Mr. Chairman.
    Mr. Melia. So I would say well, there are obviously 
business connections between Hungarian businesses and Russian 
counterparts. The Hungarian Government is part of the Trans-
Atlantic Alliance. The OSCE has all these connections to 
Russia. I don't think I would be as concerned about Russia 
somehow suborning Hungary. That was sort of the inference in 
your question.
    Mr. Sires. Right.
    Mr. Melia. I think Hungarians are aware enough of their 
surroundings and they can make up their own minds. There have 
been six elections in Hungary since the fall of communism. Five 
times they've thrown out the incumbents and put in an 
alternative government. So Hungarians are pretty good at being 
able to make decisions and say no when they want to. So I'm 
confident that Hungary will retain its well-deserved and long-
fought for independence from Russian and other kinds of foreign 
influence.
    Mr. Sires. Thank you very much.
    Mr. Burton. Thank you very much. Where did you come up with 
this information deficit disorder? That's a term that I've not 
heard before. Is that something that you made up?
    Mr. Melia. Well, it emerged from some conversations in my 
office. I have some very able colleagues in the Democracy and 
Human Rights Bureau, and that's a phrase that we came up with 
to describe what we see as one of the central challenges in the 
democratization of Russia which is this public discourse space.
    Mr. Burton. You don't need to explain, I just thought it 
was kind of cute.
    Mr. Melia. You can quote me on it.
    Mr. Burton. Now Mr. Meeks had one more question.
    Mr. Meeks. Let me ask this question which is something of 
an issue that really concerns me. I look at my own history and 
Dr. Martin Luther King once said, ``Injustice anywhere is a 
threat to justice everywhere.'' And when I look at the 
situation of the Roma throughout Europe and Eurasia, it's 
deplorable. Roma communities are on the fringe of society. 
They're largely unemployed and uneducated. They're living under 
bridges and in shanties and garbage dumps and children are 
subject to servitude and trafficking.
    So I was wondering if you could address what is being done 
to help fight and help them with human and civil rights of Roma 
and to address statelessness in general, if you could?
    Mr. Melia. The Roma community is the largest minority 
across Europe and is present in various proportions in many 
countries in Europe, East and West. In our diplomacy, in our 
Embassies in those countries, we do a lot of outreach to Roma 
communities. We provide grants to organizations that advocate 
for Roma rights. We in DRL have several programs along those 
lines trying to strengthen the advocacy for Roma interests and 
rights in a number of the new democracies in Central and 
Eastern Europe.
    The Hungarian Government, we keep circling back to Hungary, 
in their recently concluded presidency of the EU, they made the 
elevation of the plight of the Roma the signature issue of 
their presidency and that's to the credit of the Hungarian 
Government. And we hope that there will be more follow through 
across the EU institutions to try to bolster the situation of 
Roma so they can enjoy their citizenship and participate in 
political and economic life.
    Mr. Burton. Mr. Melia, thank you very much. Your testimony 
was very thorough and we really appreciate you answering the 
questions so well and thank you for the new terminology. We 
really appreciate that.
    Mr. Melia. Thank you for the opportunity.
    Mr. Burton. If you can send us the answer to some of the 
questions that you weren't prepared for, we'd appreciate it.
    Mr. Melia. Will do.
    Mr. Meeks. He'll give you the credit the first time for 
your statement. The second time it will belong to him.
    Mr. Burton. That's absolutely right.
    Mr. Melia. I'm willing to share.
    Mr. Burton. Thank you, sir. Our next panel we'd like to 
welcome to the table. David Kramer, he is the--David, where are 
you? David Kramer, do we have the--there we go. He's the 
president of Freedom House, which he joined in October 2010. 
Prior to joining Freedom House, Kramer was a senior trans-
Atlantic fellow at the German Marshall Fund of the United 
States which is a good organization. He was an adjunct 
professor at the Elliott School for International Affairs at 
the George Washington University and before joining GMF, Kramer 
served as Assistant Secretary of State for Democracy, Human 
Rights, and Labor from March 2008 to January 2009. Thank you 
very much and welcome.
    Steve Nix joined IRI in October 2000, as regional director 
for Eurasia. In that position, he oversees programs in 
Azerbaijan, Belarus, Georgia, Kazakhstan, the Kyrgyz Republic 
and Moldova, Russia and the Ukraine. Nix joined the IRI after 
serving for 2 years as Senior Democracy Specialist at the U.S. 
Agency for International Development. He's a specialist in 
political party development and judicial and legal reform in 
the former Soviet Union. Welcome. Thank you, Mr. Nix.
    Nadia Diuk, did I get that right?
    Ms. Diuk. It's pronounced Diuk.
    Mr. Burton. Diuk. I'm sorry. They wrote this down wrong. It 
wasn't the way I read it. I would have said that. She serves as 
vice president of programs for Europe and Eurasia, Africa, 
Latin America and the Caribbean at the National Endowment for 
Democracy, a private nonprofit organization funded by the U.S. 
Congress to strengthen democratic institutions around the world 
through nongovernment efforts. She has worked in Eastern Europe 
for nearly 20 years. You're too young for that, but for 20 
years, at NED. I want to thank you all for being here today, 
and just because we have a practice of doing this, I'd like for 
you to be sworn in.
    Do you swear to tell the whole truth, and nothing but the 
truth, so help you God?
    [Witnesses sworn.]
    Thank you. Let's start with Dr. Diuk. Did I get that right 
that time? Thank you, Doctor.

   STATEMENT OF NADIA DIUK, PH.D., VICE PRESIDENT, PROGRAMS, 
                NATIONAL ENDOWMENT FOR DEMOCRACY

    Ms. Diuk. Chairman Burton, Ranking Member Meeks, and 
members of the subcommittee, thank you for inviting me to join 
in today's very timely hearing on a region that continues to 
hold tremendous importance for freedom and democracy around the 
world.
    For the record, I would like to note that the National 
Endowment for Democracy does not take policy positions, so all 
the recommendations I offer today come as a result of my own 
assessments.
    As you know, this year marks the 20th anniversary of the 
dissolution of the Soviet Union and just over 20 years since 
the lifting of the Iron Curtain when the countries we 
previously called Eastern Europe cast out the Communist systems 
that kept them as ``Captive Nations'' and shackled them to the 
Soviet Union. This is a good time to rethink the terminology. 
These states are fully integrated into Europe whose 
institutions have proven to be one of the main guarantors of 
freedom and democracy, an aim that we should support for 
countries still on the outside.
    For this reason, I'm pleased to see that the title of this 
hearing refers to Eastern Europe. We should view Moldova, 
Ukraine, Belarus, and even Russia as the new Eastern Europe and 
consider the inclusion of Georgia, Azerbaijan, and Armenia 
which are, after all, already members of the Council of Europe.
    This brief review of the state of freedom and democracy has 
been informed by reports, discussions, and feedback from the 
many nongovernmental groups NED works with in the region. 
Overall, although there have been some gains, the general trend 
has been a slow backsliding and in some cases dramatic 
reversal. I have presented details and examples in my written 
remarks.
    In four of the western Balkan states, Serbia, Kosovo, 
Albania, and Bosnia and Herzegovina, the prospects of EU 
membership in the interest of EU officials have provided a 
sobering and positive effect on democratic backsliding.
    Moving to the East, the deteriorating state of democracy 
and freedom in the Southern Caucasus is of continuing concern. 
In Azerbaijan, the overall trend is a slow and painful decline 
of political pluralism and civil society. Constitutional 
amendments have removed Presidential term limits. The recent 
parliamentary elections were considered the worst ever. Freedom 
of association is nonexistent and an attempt to introduce an 
extremely restrictive NGO law in 2009 was diverted only as a 
result of international pressure.
    The prospects of democracy and freedom look more hopeful in 
Armenia where protest rallies of up to 15,000 people have taken 
place recently and the political prisoners who were held after 
the 2008 protests have been released. Despite the real gains 
achieved by Georgia in the past few years, there is cause for 
concern about creeping authoritarian tendencies that could mar 
its record as a leader for democracy and freedom in the region.
    Moving back into the heart of the new Eastern Europe, 
Moldova is the one bright spot where trends toward democracy 
are positive. However, the authoritarian regime in the 
breakaway region of Transistria remains a problem. The 
situation in Belarus remains dire as the crackdown, begun after 
the Presidential election on December 19th, continues. I think 
you have very full details from all three of us on that, so I 
won't dwell on that which I know my colleagues will talk more 
about.
    Mr. Chairman, I have left Ukraine and Russia until last in 
order to underscore their importance. The relationship between 
the two and the direction each takes will determine the future 
of freedom and democracy not only in their own country, but in 
the region as a whole. The trend lines in Russia have been 
unremittingly negative. Human rights defenders and independent 
journalists have been killed. We have witnessed the grizzly 
death in detention of the lawyer, Sergei Magnitsky. And civic 
activists have been routinely harassed, especially those who 
work on the North Caucasus.
    By creating an array of government-controlled commissions, 
public chambers, and councils which have essentially replaced 
the role of political parties, and aggregating and expressing 
the interests of the people and by refusing the registration of 
truly independent political parties, the Kremlin has 
effectively created two classes in Russia, those who wield 
political power and control of all the public and private 
assets and those who have limited access to justice and no 
genuine representation of their interests.
    Despite the growing frustration within society and the 
increasing number of street protests such as the 31 Movement, 
it is ironic that the current regime will likely use the 
upcoming elections with the inevitable falsifications and 
manipulations to claim the continued legitimacy of its rule.
    In 2004, when the rulers in the Kremlin saw their Ukrainian 
neighbors to the south bring down their authoritarian 
government, they responded by strengthening control over civil 
society groups and further curbing the independent media. Many 
authoritarian rulers around the world have followed Russia's 
lead to conduct their own backlash against democracy. Always 
the source of innovation when it comes to anti-democratic 
strategies, the Kremlin has also taken proactive measures to 
promote support for the government through sponsorship of youth 
groups such as Nashi, which means ``ours,'' whose jingoistic 
ideology challenges and erodes the fragile democratic values 
that civic and human rights activists in Russia struggle to 
advance.
    This brings me to Ukraine where I met last week with both 
government officials and civic leaders. Just a few years ago, 
Ukraine played a pivotal role as a champion of democracy and 
freedom in the region. Indeed, one prominent Russian pro-
democracy commentator declared that the best way to promote 
democracy in Russia was to make sure it succeeded in Ukraine. 
Since the election of President Viktor Yanukovych in February 
2010, however, the prospects for freedom and democracy have 
taken a sharp downturn. The constitution has been amended to 
recentralize power with the presidency. The judicial system has 
been manipulated to launch criminal proceedings and selective 
prosecutions against former officials. Last year's local 
elections were considered to have been manipulated in favor of 
the ruling power. Independent media have come under pressure. 
The security services have started to monitor civic 
organizations. There has been a concerted effort by the 
authorities to coopt advisory councils of civic organizations.
    As in Russia, there have also been efforts to undermine 
freedom of religion.
    Despite these negative trends, civil society in Ukraine 
remains strong and motivated. Ukraine's significance for the 
region's democracy activists cannot be underestimated: They 
come to Ukraine to hold conferences, conduct training seminars, 
exchange experiences and generally to ``breathe the air of 
freedom'' which is not available in their own countries. 
Russian journalists, Belarusian human rights defenders, and 
civic leaders from the South Caucasus have all come to Ukraine 
to work and meet. Ukraine's crucial role as the democratic 
anchor for civic activists in the region should not be 
overlooked despite the backsliding of its own democracy.
    Mr. Burton. Dr. Diuk, could you summarize, please? We try 
to keep it close to 5 minutes, if possible.
    Ms. Diuk. Yes. You will see that my recommendations are 
actually in my written remarks, but if there is one that I 
would like to highlight, it is to support the increased 
participation of women in politics which is a problem in all 
authoritarian states. I haven't singled that out because it is 
a widespread problem and particularly since it has been proven 
that the presence of women usually reduces the level of 
corruption and has a tendency to break up the opaque and 
corrupt relationships maintained by male-dominated 
authoritarian political aides.
    Mr. Chairman, I think Eastern Europe has a great deal to 
offer. As we focus on the democratic breakthroughs in the 
Middle East and as we look forward to a period of austerity, we 
should be mindful that a strategic and concerted effort 
conducted through diplomatic and nongovernmental actors is the 
most cost-effective way to achieve our goals.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Duik. follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you very much for that testimony and we 
here in the United States try to make absolutely sure, in fact, 
the women in Congress make absolutely sure that there's no 
discrimination.
    Mr. Nix, you're recognized.

   STATEMENT OF MR. STEPHEN NIX, REGIONAL DIRECTOR, EURASIA, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Nix. Chairman Burton, Ranking Member Meeks, thank you 
very much for this opportunity to testify about a very 
important part of the world. We know the focus is sometimes 
elsewhere, the Middle East, North Africa, however, Eurasia 
remains a very, very important area for the strategic interests 
of the United States, so thank you for this opportunity and I 
ask that my remarks be entered into the record.
    Mr. Chairman, since the breakup of the Soviet Union, the 
former Soviet Republics have moved at various speeds and paces 
in terms of democratic reform, processes, and values. Some are 
on the right trajectory, others are not. Today, my testimony 
will focus on two areas that we think are very much in the 
wrong trajectory, those are Belarus and Ukraine and two that we 
think generally are on the right track, Moldova and Georgia.
    In Belarus since 1994, Alexander Lukashenka, the last 
dictator in Europe, has ruled Belarus with an iron fist, using 
tactics common under Soviet rule, a large state security 
apparatus, harassment, arrests, beatings, and in some case, 
murder. The fraudulent December 2010 Presidential election, the 
brutal crackdown initiated after it, against those who dared to 
oppose the regime, and the unfair post-election trials follow 
the pattern of repression that has characterized Lukashenka's 
17 years of rule.
    Lukashenka's post-election plan was to further discourage 
the opposition by holding trials and to continue to incarcerate 
oppositionists. This plan is not succeeding. During the month 
of June, people have gathered in what are now known as silent 
protests. People gather and clapping has become a popular way 
of expressing discontent and a desire for change. Soon the 
authorities began arresting anyone who clapped. So it's 
becoming increasingly clear to the authorities that they can no 
longer control the silent protests which are expanding 
throughout the country.
    The question remains, what is the U.S. position with regard 
to the regime and toward the opposition? The U.S. House has 
passed the Belarus Democracy Act. The U.S. Government has 
extended economic sanctions on Belarus for another year. 
However, Mr. Chairman, we don't feel that that's enough. U.S. 
assistance should be directed toward increasing the 
effectiveness and capacity of democratic political parties and 
activists inside the country. They are the ones who constitute 
the alternative to Lukashenka's regime. They are the ones in a 
position to provide economic and social reform. The political 
opposition needs increased technical and commodities 
assistance.
    In Ukraine, many international organizations have 
criticized Ukraine's current trajectory on democratization. In 
the year since Yanukovych became President, Freedom House has 
downgraded Ukraine from being free to partly free. The Ukraine 
Government has begun to closely monitor NGOs and their 
activities including the IRI. A cabinet of ministers' decree 
makes it easier to deregister civil society organizations. IRI 
has received a written request from Parliament demanding 
information on IRI's activities in Ukraine since 1991. The 
request is unprecedented in nature and scope for the IRI's long 
history in Ukraine.
    In spite of numerous European and U.S. Government 
statements of concern about the application of selective 
justice, the Ukrainian Government continues to prosecute and 
incarcerate leading opposition figures. The U.S. has 
consistently supported Ukraine's Euro-Atlantic aspirations. The 
U.S. must be very direct with its Ukrainian colleagues. It 
should tell the Ukrainian authorities frankly when their 
actions, whether involving elections, civil society, rule of 
law, or media are in contradiction with Western standards.
    In Georgia, Mr. Chairman, the government continues to build 
democratic institutions and in the past several years, we feel 
there's been areas of notable progress. The position of Tbilisi 
Mayor has become an elected position. Georgia has undertaken 
constitutional reform, is now working on a new election code in 
an attempt to ensure that elections scheduled for 2012 and 2013 
meet international standards. The U.S. has consistently 
supported Georgia's sovereignty and territorial integrity and 
should continue to do so. In the meantime, the U.S. should 
continue to support Georgia's efforts to build democratic 
institutions.
    And finally, in Moldova, after years of political 
stagnation since achieving independence from the Soviet Union, 
Moldova has reached a historic and transformative point in its 
democratic development. In 2009, voters ended 8 years of 
Communist Party rule and elected a coalition of reform-minded 
pro-Western deputies. Since then, the government has made 
impressive progress in implementing democratic reforms, showing 
greater respect for human rights and moving toward its ultimate 
goal of European integration.
    Moldova's economy would substantially benefit from greater 
access to global markets including the U.S. The Moldovan 
Government is committed to expanding the international markets 
for its country's products. The Jackson-Vanik amendment hinders 
the government's ability to do so.
    Finally, Mr. Chairman, let me close with an observation. 
The Assistance for Europe, Eurasia, and Central Asia Act which 
was formerly known as the Freedom Support Act and the Support 
for Eastern European Democracy, or SEED Act, and the programs 
that these pieces of legislation created have provided 
essential support for those struggling to promote democracy 
throughout Eastern Europe and the former Soviet Union. It's 
important that support continue from the United States to help 
those countries which are seeking to consolidate democratic 
institutions and practices such as Georgia and Moldova as well 
as those continuing to struggle in places like Belarus and 
Ukraine to finally establish a path to a democratic future.
    Again, thank you for this opportunity and I would like to 
commend you on a personal note, Mr. Chairman, for coming to 
Vilnius and seeing with your own eyes what the Community of 
Democracy's Parliamentarian Forum is trying to do. And you 
should know that they're having a follow-up event in Washington 
which I hope you'll be able to attend. Thank you.
    [The prepared statement of Mr. Nix follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you very much, Mr. Nix. I really 
appreciate that comment. I will be at that conference. And the 
thing that was unusual about the conference in Vilnius is their 
legislative branch was in session and they left me in charge of 
the whole conference. And I didn't know what was going on.
    Mr. Nix. I was in the audience and I thought you did an 
outstanding job.
    Mr. Burton. Would you call my wife? She doesn't appreciate 
me and I'd like for her to know that.
    Mr. Kramer.

  STATEMENT OF THE HONORABLE DAVID KRAMER, PRESIDENT, FREEDOM 
                             HOUSE

    Mr. Kramer. Chairman Burton, Member Meeks, members of the 
subcommittee, it's an honor to appear before you here today and 
also an honor to be on this panel with my friends, Steve Nix 
and Nadia Diuk, and also my friend and former Freedom House 
colleague, Tom Melia. I also want to commend you on the timing 
of today's hearing, Mr. Chairman, because it allows me to 
shamelessly plug two publications from my organization, Freedom 
House: Nations in Transit 2011, which describes trends in East 
and Central Europe and Eurasia, and Sounding the Alarm: 
Protecting Democracy in Ukraine. I recommend both.
    Mr. Burton. Can we get copies of those?
    Mr. Kramer. With pleasure, sir. Thank you very much.
    Mr. Burton. Thank you.
    Mr. Kramer. Mr. Chairman, the state of democracy and 
freedom in East and Central Europe is fairly strong and 
resilient albeit with some exceptions, but in Eurasia I would 
argue the picture is much more bleak. The countries closest to 
the European Union, and by the extension to the trans-Atlantic 
community, are at a pivotal point in their development. 
Belarus, as Steve and Nadia have explained, is pushing the 
limits of repression as Europe's last dictatorship, even if a 
breakthrough there in Lukashenka's demise may come about before 
too long.
    Ukraine, arguably the most strategically important country 
along the EU's borders, is also moving in the wrong direction 
when we look at things in a democratic perspective. And trends 
there, if left unchecked, threaten to steer Ukraine in a 
direction of greater centralization and consolidation of power, 
even authoritarianism and kleptocracy.
    As we look at the Caucasus, only Georgia has really shown 
signs of progress, whereas in Azerbaijan, there has been 
backsliding. Moldova, as Steve has indicated, is in contrast to 
these other countries, moving in the right direction and 
earning the greatest net improvement in our scores in the 
Nations in Transit Report. We hope that that progress will 
continue.
    For the West and its interest in seeing these countries 
become more democratic, policy should involve deeper engagement 
with these countries, not less. And pushback on abuses, not 
silence. This will not be easy given competing demands 
elsewhere in the world, but if the majority of countries in 
Eurasia continue to veer off the democratic path, the challenge 
for the West will only grow.
    There are some common features as we look at the countries 
in Eurasia in particular, and that's where I want to focus, Mr. 
Chairman. A number of these consolidated authoritarian systems 
do not permit real political competition and instead hold 
stage-managed elections in a desperate bid for legitimacy. 
Governments in the region, just as those in the Middle East, 
systematically deny space for moderate, political expression 
and alternative viewpoints, driving these viewpoints into 
greater extremist directions.
    Rampant corruption and lawlessness hobble economic 
opportunity and reform, and in many cases, the opaque regimes 
in the region tend to treat the national wealth as their own 
wealth. This is part of the broader pattern of narrow regime 
interest taking precedence over public good.
    None of the consolidated authoritarian regimes in question 
have signaled a willingness or capacity to undertake genuine 
reforms. Instead, the prevailing strategy seems to be just as 
it was with regimes in the Middle East, to tighten the screws 
and hope for the best. That is not a wise or effective 
strategy.
    Mr. Chairman, my colleagues have covered a number of 
countries in the region. Some of them are covered in our 
reports. I want to cover Russia in my remaining time. And let 
me cut right to the chase by saying that Russia's leaders show 
no respect for human rights, accountability, or independent 
institutions and refuse to allow a viable opposition to take 
root. This disrespect for human rights and lack of 
accountability extends to past abuses as well. Lithuania has 
sought cooperation from Russian legal authorities in its 
pursuit of accountability and justice for the killings of 14 
people on January 13, 1991. This is included in the Lithuanian 
authority's requests for the extradition of Mikhail Golovatov, 
commander of the Alpha KBG Unit at that time, who had briefly 
been detained in Austria but has been inexplicably released.
    Looking ahead with Presidential elections coming up in 
Russia, I don't see a reason to be optimistic or hopeful about 
the situation there. Prime Minister Putin continues to out poll 
President Medvedev, although not by huge margins, and the 
support for both leaders has been declining. A return by Putin 
as President, I think, would be a depressing blow for those 
hoping for an end to the authoritarian rut that Russia has been 
in for the past decade.
    Sovereign democracy, the term that has been used to try to 
pretend that Russia is pursuing a democratic path in its own 
way, is something that I think none of us want to see extended 
for 6 more years at least, should Putin return, and the 
Presidential term has been extended from 4 to 6 years.
    Many Western observers favor Medvedev over Putin, viewing 
the former as a more liberal, Western-oriented reform leader. 
But even if Medvedev remains President, I frankly don't see 
many signs or much reason to be hopeful that Russia will move 
in a more democratic direction despite Medvedev's lofty 
rhetoric about modernization and rooting out legal nihilism. 
Russia, after more than 3 years under his presidency, has 
really shown no improvement on democracy and human rights 
issues, and in many respects it is as bad as it was under the 8 
years with Vladimir Putin as President.
    Opposition forces continue to be harassed and excluded from 
the political process. Journalists and bloggers are beaten or 
investigated for their reporting and their activities. Critics 
like Mikhail Khodorkovsky, as you asked Tom Melia before, Mr. 
Chairman, suffer the punishment of authorities because they 
step out of line and are victims of the judicial system as 
Russian leaders choose to use it. The North Caucasus, while 
less violent than it was a decade or a decade and a half ago, 
continues to remain a mess when it comes to human rights, and 
Chechen leader Kadyrov is pointed at as responsible for many 
abuses himself.
    Overall, the lack of accountability for human rights abuses 
and the grossly politicized legal system create an environment 
wherein such abuses are not only condoned but expected, almost 
as a demonstration of loyalty to the regime.
    Mr. Chairman, there are a number of activists, lawyers, and 
journalists who have been killed over the years in Russia with 
no resolution to their cases: Natalya Estemirova, Aleksandr 
Litvinenko, Anna Politkovskaya, Paul Klebnikov, and Sergei 
Magnitsky, just to name a few. In the Magnitsky case you had 
asked Tom Melia about before, I would strongly encourage, Mr. 
Chairman, and I know I'm over my time, support by the U.S. 
House of Representatives, along with the U.S. Senate for the 
Justice for Sergei Magnitsky Bill in the interest of trying to 
hold Russian officials accountable for gross human rights 
violations, not only in the case of Magnitsky and his murder--
and I do call it a murder since he was denied medical treatment 
and allowed to die in prison--but for other similar gross human 
rights abuses. I would strongly urge the subcommittee and the 
full committee and the chamber itself to get behind this bill. 
This bill, I would argue, Mr. Chairman, is what has moved 
Russian officials to do anything. In the past, before 
legislation was being considered by U.S. or European 
parliamentarians, the Russians not only ignored this case, but 
they rewarded and promoted officials who were involved in the 
Magnitsky case. That has come to an end and I hope, Mr. 
Chairman, that this subcommittee will get behind this 
legislation. Thank you.
    [The prepared statement of Mr. Kramer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you very much. I just mentioned to my 
right hand here that we'll take a hard look at that and see if 
we can get on that bill.
    One of the things that you mentioned about Belarus was 
Lukashenka and his iron fist and iron hand over there. They're 
building a nuclear facility very close to the border near 
Vilnius in Lithuania.
    Do any of you have any comment about that or any 
suggestions on how we can--I'm not sure we can--dissuade Russia 
from going ahead with that or Belarus? And let me also just 
expand that and say, how strong is the control or influence 
that Russia has over Belarus?
    Mr. Kramer. Mr. Chairman, the relationship, I would argue, 
between Russia and Belarus is quite strained. I don't think 
it's a secret to say that Prime Minister Putin and President 
Medvedev cannot stand President Lukashenka. They seem to be 
enjoying the current plight that Lukashenka is in and want to 
try to exploit it so that Russia can buy up assets inside 
Belarus. Belarus is being squeezed from all sides. Lukashenka, 
I should say, is being squeezed from all sides. And I think 
that's a good thing because he deserves to be for the gross 
human rights abuses he's committed.
    Mr. Burton. It's surprising that Russia is building that 
nuclear power plant. They're so close to Vilnius.
    Mr. Kramer. Commercial interests, Mr. Chairman, sometimes 
strongly outweigh other interests that we see in the region, 
including safety and security for those living along the 
border.
    Mr. Burton. We were in Moscow just a couple of weeks ago 
and we met with the opposition. And we share your concern about 
the lack of I guess chance that they have of having any kind of 
an impact on the upcoming elections. And I believe that if I 
were a betting man that whoever Putin decides is going to be 
the next President, whether it's Medvedev or himself will be 
the President because of the conversations we've had with 
business and political leaders over there.
    Let me see what else I had here I wanted to ask you about. 
Georgia. We were in Georgia and one of the things that you 
neglected to mention was the invasion of Georgia by Russia and 
the occupation and the building of barracks and actually small 
town, if you will, right on the border there between Georgia 
and Russia. Do any of you have any prospects or thoughts on--or 
any evaluation on what can be done to get Russia to relent and 
move out of that area?
    Mr. Nix. I would just say this, Mr. Chairman. The Georgian 
concern is that on the other side of the border, the 
unrecognized border, Russian forces continue to build up there 
and there's a great concern and the Georgian Government is 
looking to purchase defensive weapons to defend itself and that 
is a very, very important issue to the Georgian Government.
    Mr. Burton. We went down to a city that they're building 
which is in close proximity to the occupation. We went down 
there with the President of Georgia. And they're doing that to 
show the positive impact that the free society is having in 
that area to try to dissuade the kind of things you're talking 
about. I was not aware until just now. You say they're building 
up forces on the Russian side for potential invasion further 
into Georgia?
    Mr. Nix. I don't want to speculate the aims, but according 
to the Georgian Government, there is a build up on the border 
area, yes.
    Mr. Burton. I wasn't aware of that when I was there just a 
few short weeks ago. I was aware of the occupation, but not of 
any additional military.
    Mr. Nix. I think it's more of a construction in nature than 
anything else.
    Mr. Burton. I think you're right there. They're permanently 
building structures for their troops and their families. You 
mentioned Moldova and Jackson-Vanik. You think we ought to 
change our attitude on Jackson-Vanik with Moldova?
    Mr. Kramer. Mr. Chairman, on Moldova, I think absolutely. 
On Jackson-Vanik, to be perfectly honest, Mr. Chairman, I think 
Jackson-Vanik should be lifted for Moldova, for Russia as well. 
Jackson-Vanik was a piece of legislation that served its 
purpose very effectively. It came about in the 1970s and the 
emigration of Soviet Jews is obviously no longer an issue in 
light of the collapse of the Soviet Union.
    In the case of Moldova, I would lift Jackson-Vanik without 
any additional steps. In the case of Russia, I would lift 
Jackson-Vanik and then substitute it for a Magnitsky kind of 
bill so that there is legislation in place that applies to 
Russia's abuses today, rather than abuses that the Soviet Union 
committed in the past.
    Mr. Burton. Do you think a Jackson-Vanik repeal would be 
something that would convince the Russians to take a different 
track on issues like that?
    Mr. Kramer. No, I don't. But my interest----
    Mr. Burton. I think so.
    Mr. Kramer. My interest, Mr. Chairman, is Jackson-Vanik 
really doesn't play.
    Mr. Burton. It's outlived its usefulness.
    Mr. Kramer. And moreover, if we were to graduate Russia 
from Jackson-Vanik, we would disarm them from one of the 
political weapons they like to use against us and hit us over 
the head: You still have this old piece of legislation that you 
hold against us.
    Mr. Burton. I think you make a very valid point.
    Mr. Meeks?
    Mr. Meeks. Just on that, following the chairman, what about 
Russia's interest in entering into the WTO? Do you think that 
will cause them to at least do some more--abide by some of the 
rules and regulations there?
    Mr. Kramer. Mr. Meeks, in an ideal world, I would say yes, 
but I am not convinced that Russia really wants to join the 
WTO. Just in the past 10 days, we've seen Prime Minister Putin 
talk about the automobile industry in Russia and making sure 
that WTO membership would not adversely affect that in Russia.
    President Medvedev just the other day talked about 
maintaining agricultural subsidies in Russia. There are 
indications that there are splits within the Russian leadership 
on joining WTO. My hunch is that Russia would prefer to point 
the finger and blame Georgia for blocking Russia's joining the 
WTO than it actually would joining WTO itself. And so we have 
to be careful not to want WTO membership for Russia more than 
Russia does. And I fear that that's where we've wound up.
    Mr. Meeks. Let me go back to what we were talking about 
earlier and thank you for that. It seemed to me that one of the 
driving attractions for some of the developing nations like 
Moldova, for example, and then to a degree the other extreme 
would be the Ukraine, is entrance into the EU and now that the 
EU seems to be saying that they're not going to expand any 
more, the question is what--do you think there's any other 
motivations that one will have to inspire progress in 
strengthening those democracies? Moldova is on the right path 
from what I'm hearing from everyone. But they know if the EU is 
not going to open up, do they continue? Do they go back? Would 
it be an incentive for the Ukrainians if they thought they did 
the right thing, they could get access into the EU?
    Give me your thoughts, Dr. Diuk?
    Ms. Diuk. Ukraine's foreign policy in the first few months 
of Yanukovych actually was veering a little toward Russia, so 
they weren't too interested in the EU, but it seems to have 
veered back again now and there are some active talks taking 
place on association status for Ukraine.
    Ukraine is very sensitive about its international image and 
even if EU membership itself may be a little way off, I think 
the current government does like to put itself forward as a 
European state and they have made claims that, ``Oh, we will 
make sure that all of the European standards are adhered to 
within our country, even if we are not admitted to the actual 
union in the very near future.''
    However, we should look at these statements with a little 
bit of skepticism, but I think the EU is a very disciplining 
element and we should keep up with making sure that the EU does 
look at this positively.
    Mr. Meeks. Mr. Nix?
    Mr. Nix. Yes, Mr. Meeks, with regard to Moldova, I would 
say that Moldova has taken great steps in terms of reform and 
they are dedicated to European integration. In fact, the 
alliance, AEI stands for the Alliance for European Integration. 
And first and foremost, they're all about becoming part of the 
Euro-Atlantic Alliance and taking great steps, as I said, to do 
so.
    In turn, the European Union is negotiating a free trade 
agreement and other agreements, instruments with Moldova. And I 
think the two sides are moving together. I think also our 
polling data indicates that the Moldovan people, although 
they're supportive of EU membership, know that it will take 
some time for that to actually take place. So I think the level 
of expectation is not that great in terms of the number of 
years it might take for Moldova to integrate.
    Mr. Meeks. I wanted to mention the fact that the EU has 
concluded its trade agreement with Moldova, but yet here in the 
United States we don't even have a PMTR with Moldova. Do you 
think that that's something we should begin to institute 
working with Moldova in short order?
    Mr. Nix. I really do. One of the basic concerns of Moldova 
is that it receives scant attention and for a country which is 
the same size as all the Baltic States, it receives very little 
attention. To be able to come together and unite the political 
opposition as they did in the 2009 election and defeat the last 
popularly elected Communist government in Europe was an 
outstanding feat that largely went unnoticed. So it struggles 
for attention. One of my recommendations in my written 
testimony is that, Mr. Chairman, you and the members of the 
subcommittee travel to Moldova and see exactly what this 
government is trying to achieve. See the reforms that they're 
instituting. They are young, reform-minded, Western-oriented 
leaders and it would be critical, I think, for you to go.
    I applaud Vice President Biden who went in the past year 
and our chairman, Senator McCain also visited. I would really 
encourage the subcommittee to go out and see for yourselves.
    Mr. Kramer. Mr. Meeks, if I could just very quickly, I 
would add to that I think there really is no reason not to 
grant PNTR to Moldova and graduate it from Jackson-Vanik. The 
challenge has always been finding the legislative vehicle by 
which to do it, and if there could be more focus on that, I 
think that would be a very significant move. Thank you.
    Mr. Meeks. Let me ask this question because in light of the 
Arab Spring and the connection to the Internet and people 
fighting for democracy, I was wondering in Russia the 
effectiveness of groups like the Blue Bucketeers or what is it, 
the Khimki Forest people or the now Article Sanction 31 
protest, whether or not any one of you could talk about the 
influence of these groups who are trying to utilize the 
Internet as a light on government corruption and some of the 
things that are taking place now, trying to stand up. Are they 
starting to take hold? Is it something that can mushroom or 
what's your viewpoint? What are your thoughts?
    Ms. Diuk. One of the things that we've noticed, 
particularly with information coming from our partners in 
Russia, is that these protests are increasing now, whether it's 
the Khimki Forest, whether it's the 31 Protest or protesting 
against the restrictions on freedom of association. However, 
the difficulty for all of these protests are that they are out 
on the street. They find it very difficult with the other 
restrictions in terms of political organization to channel 
those ideas and demands into any sort of institution in Russia 
that will pay any attention.
    You mentioned the Internet. Yes, of course, it has been a 
very useful tool for informing people. There is a whole sort of 
virtual independent Russia out there on the Internet, but I 
would like to mention also that the Russian authorities are 
very aware of this and they have also flooded the Internet with 
their own sort of pro-government and anti-democratic Web sites 
that are manipulated very effectively by the Russian 
Government.
    I don't see for the future how these protest movements can 
actually feed into the political system.
    Mr. Kramer. Mr. Meeks, I think to the extent that these 
movements exist, they're very nascent, and they are driven 
largely by frustration with corruption as we saw in the removal 
of the governor of Kaliningrad. Even the Blue Bucket movement 
was driven by abuse of blue lights by officials who weren't 
entitled to use such blue lights on their cars and caused a 
number of fatal accidents.
    In some cases they are fed by economic reasons, as we saw 
out in the Far East when there were protests over the decision 
to impose duties on the imports of foreign cars. We haven't 
really seen a movement driven by resentment, frustration, or 
unhappiness with the anti-democratic direction that the Russian 
leadership has taken the country over the past 10-plus years. 
I'm not saying it is impossible to happen, but there aren't 
very strong roots yet in Russia for it to take shape.
    Mr. Meeks. If I may, last question. Everybody is getting 
frustrated and I try to figure out with what's going on in 
Belarus and with the fact that, and you know, how do we 
increase freedom and democracy there given who we have there, 
and the fact that the United States Government, the EU, or I 
don't believe any of your NGOs are allowed to operate freely in 
Belarus.
    So I'm just hoping, I'm just trying to figure this out. 
What strategies can we utilize to try to increase freedom and 
democracy in Belarus?
    Mr. Nix. Yes, sir. I'd like to answer that directly. As I 
stated in my testimony, we feel that now is the time to really 
add pressure to the regime which is under pressure. As David 
pointed out, Lukashenka is under tremendous economic pressure, 
social pressure. Now is the time for change. There was a 
movement in the past 2 years on both of the--on the part of the 
EU and the United States to try to do some sort of 
rapprochement with this regime. And so there was an attempt to 
do soft projects, education, environment, business development 
that they thought would bring Belarus closer into Europe.
    The events of December 19th, the brutal crackdown 
demonstrated that there's no more gray areas. It's only black 
and white and these types of projects don't work. The only 
thing that we think works is the hard projects where you are 
actually training people to be politically active, civil 
society to be active, and to try to promote change from within 
the country.
    As you correctly point out, those of us who are in the 
business of doing more of the hard projects are prohibited from 
entering. My people just applied and we were rejected for visas 
and just simply can't get into the country. We operate from 
Vilnius, Lithuania. Our colleagues at NDI operate from Kiev, 
Ukraine, and we think that that's the most appropriate way for 
our organizations to work in the country, to do it offshore and 
that's what we'd like to continue to do.
    Ms. Diuk. I'd just like to add to that. At the National 
Endowment for Democracy because we work with small amounts of 
funding, we have provided considerable amounts of funding to 
Belarus and independent activists and they accept this funding 
and work with this funding at huge risk to themselves, but it 
is possible to do. We've been doing it for many years now and 
also assisting both IRI and NDI to convert their programs in 
the country and we would hope for further support to be able to 
do that.
    Mr. Burton. Thank you, Mr. Meeks.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman. As I listen to your 
comments, are we--I'm talking about America--too distracted in 
not devoting sufficient attention to this area with all of the 
things that we have going on in this country? Are we too 
distracted? I mean, you know----
    Mr. Nix. I would just say this, Congressman, that we 
understand why there is focus on other parts of the world right 
now. But it's my opinion and I think my two colleagues join me 
in this and Mr. Melia as well, what happens in this region has 
tremendous impact far beyond the region. And so this region 
remains of critical strategic interest to the United States. So 
additional focus is necessary. It may be difficult for all 
that's going on, as you pointed out, but again, we think that 
attention, assistance, involvement, engagement is critical in 
Eurasia.
    Mr. Sires. I just wonder how you feel.
    Mr. Kramer. Congressman, it has been a several decades long 
goal to see a Europe whole, free, and at peace. And that vision 
has not yet been realized. There is a lot of work still to be 
done. There are challenges in the region. In the case of 
Russia, not only is it not moving in a democratic direction 
internally, but it even poses a challenge to other countries 
that look to move in a more democratic direction to try to 
block those countries' integration into Euro-Atlantic 
institutions.
    As Steve said, and I agree with him, it is completely 
understandable that a lot of attention on the part of the U.S. 
Government and European Governments is on the Middle East and 
events happening there. But we cannot take our eye off the ball 
in Eastern Europe and Eurasia. It is critically important what 
happens there. We do want to see that vision come true of 
Europe, whole, free, and at peace.
    Ms. Diuk. I might as well add my bit here, too. I echo 
everything that my two colleagues have said and I can 
understand why there's been a lot of excitement about the 
events in the Middle East, but we have to remember that there 
was similar excitement 20 years ago about this region of the 
world and we still haven't managed to get it right in that 
region yet. So I think that all goes for greater attention, 
possibly more attention than is being given right now. And as 
well, not just to single out one country, but to look at the 
region as a whole and see how inter-connected it is, how these 
civic activists work on a regional basis. We should be helping 
them on a regional basis and not to just work with one country 
and possibly downplay some others because of budgetary or other 
attention deficit issues that we might have.
    Mr. Sires. You know, as a follow up of my colleague's 
questions, one of the tactics that we could use would probably 
be to block loans, IMF loans, to some of these countries and 
other international loans. Have we ever applied that tactic 
against Lukashenka?
    Mr. Kramer. Congressman Sires, the IMF extended a loan to 
Lukashenka after he released the political prisoners in 2008 
and extended that loan in 2009. Lukashenka broke his promise to 
the IMF by grossly inflating state spending by increasing 
salaries to state employees right before last December's 
Presidential election, obviously designed to buy votes, quite 
literally.
    So there are very good economic reasons not to move forward 
with any additional International Financial Institution support 
to Lukashenka. There are also political reasons not to do so, 
and I know the IMF does not like to get involved in politics, 
but I would argue in the current circumstances, as long as 
there are some 40 plus political prisoners languishing in 
Belarusian jail cells, there should be absolutely no 
consideration given to an IMF loan. In fact, if the IMF won't 
announce it, it won't even consider an IMF loan, a Belarus 
working group that some of us are involved in has recommended 
that Secretary Geithner and EU finance ministers come out and 
state very clearly that the U.S. and EU will not support any 
IMF loans to Belarus.
    Lukashenka is holding out for the hope that the IMF will 
bail him out. And not only should the IMF not bail him out, we 
need to send two signals. One to him that the IMF is not going 
to come to his rescue, but we also need to send a signal to the 
opposition and civil society in Belarus to let them know that 
the IMF is not going to undercut their efforts to bring about 
change there.
    Mr. Nix. Again, I would just--yes, this is a critical 
point. Lukashenka is desperate for cash. He cannot continue to 
fund a state-run economy the way he has been. Russian pressure 
has been placed on the economy. Subsidies on gas and oil have 
been reduced. So he really is in a desperate spot. Now is the 
time to really turn up the pressure on this regime, both 
economically and politically.
    Mr. Burton. If the gentleman would yield, I want to thank 
the Assistant Secretary for sticking around. I guess he didn't 
hear me. Thank you very much for staying around for the second 
panel. I appreciate that very much. Thank you.
    Go ahead.
    Mr. Sires. I really have no other questions.
    Mr. Burton. Let me just end by making a couple of comments. 
First of all, you folks, as well as the State Department have 
real insights into the problems facing Europe and Eurasia. 
We're going to be going on our next codel to Turkey, Greece, 
and Cyprus to try to address those issues. We may even stop by 
Azerbaijan during that trip. But if there are things that you 
think need immediate attention or attention in the not too 
distant future for a congressional delegation to focus on, 
we'll be glad to try to do that.
    There are some parts that you talked about today where we 
have not been with Moldova, as an example. And we want to make 
sure we do whatever is necessary over the next couple of years 
to make sure that we help as much as possible to stabilize that 
entire region, especially in view of the fact that right now 
they're having severe difficulties financially in the European 
Union with Greece and Italy and Ireland and Portugal and Spain. 
And so anything we can do to assist in that whole region, we'd 
like to.
    So you have the expertise. If you have any suggestions if 
you would contact my ranking member, Mr. Meeks or myself, or 
any member of the committee and we'll see if we can't work that 
into our schedule in the future.
    Do any of you have any last minute comments on things we 
may have omitted? Any other comments? Thank you very much. We 
really appreciate your testimony. We stand adjourned.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
